                       u.s. SMALL BusINEss ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                                AUDITING DIVISION



                                                               AUDIT REPORT
                                                      Issue Date: November 13, 2009
                                                      Number: 10-04

To:           Jonathan 1. Carver
              Chief Financial Officer
               C-oL "-<..:1
From:         Debra S. Ritt
              Assistant Inspector General for Auditing

SUbject:      Audit of SBA's FY 2009 Financial Statements


Pursuant to the CbiefFinancial Officer's Act of 1990, attached is a copy of the
Independent Auditors' Report issued by KPMG LLP on the Small Business
Administration's financial statements for the fiscal year ended September 30, 2009. The
audit was perfonned under a contract with the Office of Inspector General (OIG) and in
accordance with Generally Accepted Government Auditing Standards; Office of
Management and Budget's (OMB) Bulletin 07-04, Audit Requirements for Federal
Financial Statements, as amended; the Government Accountability Office
(GAO)/President's Council on Integrity and Efficiency (pCIE) Financial Audit Manual; and
GAO's Federal Information System Controls Audit Manual.

The KPMG report concluded that SBA's consolidated financial statements presented fairly.
in all material respects, the financial position of SBA as of and for the years ended.
September 30, 2009 and 2008. It also presented fairly, in all material respects, SBA's net
costs, changes in net position, and combined statements of budgetary resources for the years
then ended.

With respect to internal controls, KPMG reported a material weakness over financial
reporting, and continued to report a significant deficiency related to Information Technology
security controls. Details regarding the matters that led to the auditor's conclusion on
internal controls are further discussed in Exhibits I and n of the Independent Auditors'
Report. KPMG's test for compliance with certain laws, regulations, contracts and grant
agreements detennined that the Agency did not fully comply with the Debt Collection
Improvement Act of 1996 because SBA did not consistently follow Treasury guidelines for
referring delinquent debts for collection. Details regarding the auditor's conclusion are
included in the "Compliance and Other Matters" section of the Independent Auditors'
Report. The auditors did not report any other instances or matters regarding noncompliance.

We provided a draft ofKPMG's report to SBA's Chief Financial Officer (CFO), who
concurred with its findings and recommendations and agreed to implement the
recommendati~ns. The CFO is delighted that SBA has again received an unqualified

                                                                                         1
audit opinion ~d believes these results accurately reflect the quality of the Agency's
financial statements and its improved accounting, budgeting and reporting processes.

We reviewed a copy ofKPMG's report and related documentation and made necessary
inquiries of their respective representatives. Our review was not intended to enable us to
express, and we do not express, an opinion on the SBA's financial statements, KPMG's
conclusions about the effectiveness ofinterna1 control, or its conclusions about SBA's
compliance with laws and regulations. However, our review disclosed no instances where
KPMG did not comply, in all material respects, with Generally Accepted Government
Auditing Standards.

We appreciate the cooperation and assistance of SBA and KPMG. Should you or your staff
have any questions, please contact me at (202) 205-lD..z.Jor Jeffrey R. Brindle, Director,
Information Tecbnology and Financial Management Group at (202) 205· (-0'. _'2..")

Attachment




                                                                                         2
                               KPMG LLP
                               2001 M Street: NW
                               Washington, DC 20036




                                      Independent Auditors' Report


Office of Inspector General,
u.s. Small Business Administration:
We have audited the accompanying consolidated balance sheets of the u.s. Small Business Administration
(SBA) as of September 30,2009 and 2008, and the related consolidated statements of net cost and changes
in net position, and combined statements of budgetary resources (hereinafter referred to as "consolidated
financial statements") for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our fiscal year 2009
audit, we also considered SBA' s internal control over financial reporting and tested SBA' s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that SBA's consolidated
financial statements as of and for the years ended September 30, 2009 and 2008, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

Our opinion emphasized SBA's implementation of Statement of Federal Financial Accounting Standards
(SFF AS) No. 31, Accountingfor Fiduciary Activities.

Our consideration of internal control over financial reporting resulted in identifYing a certain deficiency
that we consider to be a material weakness, item number 1, and other deficiencies that we consider to be a
significant deficiency, item number 2, as follows:

1 Improvement Needed in Internal Controls over Financial Reporting
2 Improvement Needed in Information Technology (IT) Security Controls

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed one instance of noncompliance that is required to be reported herein under
Government Auditing Standards and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
ReqUirements for Federal Financial Statements, as amended.

3   Noncompliance with the Debt Collection Improvement Act

The following sections discuss our opinion on the SBA's consolidated financial statements; our
consideration of the SBA's internal control over financial reporting; our tests of SBA's compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements; and management's and
our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of SBA as of September 30, 2009 and
2008 and the related consolidated statements of net cost and changes in net position, and the combined
statements of budgetary resources for the years then ended.
u.s. Small Business Administration
November 13, 2009
Page 2 of4


In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of SBA as of September 30, 2009 and 2008 and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with u.S. generally accepted
accounting principles.

As stated in Note 4 to the financial statements, SBA implemented the requirements of SFFAS No. 31 in
fiscal year 2009.

The information in the Management's Discussion and Analysis, Required Supplementary Information, and
Required Supplementary Stewardship Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by u.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in the internal
control over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity's financial statements will not be prevented or detected and corrected on a
timely basis.

In our fiscal year 2009 audit, we identified a deficiency in internal control over financial reporting that we
consider a material weakness, as described in Exhibit I, and other deficiencies that we consider to be a
significant deficiency, as described in Exhibit II. Exhibit III presents the status of the prior year significant
deficiency.

We noted certain additional matters that we have reported to management of SBA in a separate letter dated
November 13, 2009.

Compliance and Other Matters
The results of our tests of compliance described in the Responsibilities section of this report, exclusive of
those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed one
instance of noncompliance that is required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04.

As stated in its Federal Managers' Financial Integrity Act (FMFIA) Assurance Statement, SBA
management reported the agency was noncompliant with the Debt Collection Improvement Act in fiscal
year 2009 due to instances where it did not refer a substantial number of charged off loans to Treasury for
offset and cross servicing.
u.s. Small Business Administration
November 13,2009
Page 3 of4


The results of our tests of FFMIA disclosed no instances in which SBA' s financial management systems
did not substantially comply with the: (1) Federal financial management systems requirements;
(2) applicable Federal accounting standards; and (3) the U.S. Standard General Ledger at the transaction
level.

                                                *******

Responsibilities
Management's Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to SBA.

Auditors' Responsibilities. Our responsibility is to express an opinion on the fiscal year 2009 and 2008
consolidated financial statements of SBA based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04, require that we plan
and perform the audits to obtain reasonable assurance about whether the consolidated financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of SBA' s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered SBA's internal control over financial
reporting by obtaining an understanding of SBA's internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements. We did not test all controls relevant to operating objectives, as broadly defined by the FMFIA.
The objective of our audit was not to express an opinion on the effectiveness of SBA's internal control
over ,financial reporting. Accordingly, we do not express an opinion on the effectiveness of SBA's internal
control over financial reporting.

As part of obtaining reasonable assurance about whether SBA's fiscal year 2009 consolidated financial
statements are free of material misstatement, we performed tests of SBA's compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions
referred to in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in
u.s. Small Business Administration
November 13, 2009
Page 4 of4


the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to SBA. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.



SBA's response to the findings identified in our audit is presented in Exhibit IV. We did not audit SBA's
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of SBA's management, SBA's Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 13, 2009
                                                                                                     Exhibit I
                                   u.s. Small Business Administration
                                             Material Weakness


Introduction
Exhibit I herein describes the material weakness and Exhibit II describes the control deficiencies, which
collectively resulted in a significant deficiency, for the year ended September 30, 2009, and our
recommendations. The status of the prior year significant deficiency is reported in Exhibit III, and SBA
management's response is presented in Exhibit IV.

Material Weakness
The material weakness we identified for the year ended September 30,2009, is summarized below.

(1) Improvement Needed Surrounding Controls Over the Financial Reporting Process

SBA has various reconciliation and data quality improvement procedures between and within its various
systems and departments to ensure that the agency's financial statements are reasonable and fairly
presented. The purpose of these procedures is to improve the overall quality of the data SBA uses
internally to monitor operations and loan portfolio performance as well as to periodically report to its
various stakeholders, such as the U.S. Department of Treasury and the Office of Management and Budget
(OMB). However, these procedures need to be strengthened to improve the quality and accuracy of the
quarterly and year-end financial reporting process.

SBA did not timely identifY a $346.6 milIion overstatement in its financial statements concerning its
liability for loan guaranties and defaulted loan guaranty receivable balances. The error was due to a lack of
effective process controls over SBA's Return on Assets (ROA) calculation. The ROA calculation is used to
record an alignment entry which adjusts the net defaulted loan guaranty receivable and the liability for loan
guaranty balances to net present value (NPV) in accordance with Statement of Federal Financial
Accounting Standards (SFFAS) No.2, Accounting for Direct Loans and Loan Guarantees. One of the
main inputs of this calculation is the NPVs generated by the Credit Subsidy Calculator 2 (CSC2). For
cohorts reestimated using projected disbursements SBA did not properly reduce the NPV amounts on a
prorata basis to reflect the NPV based on actual disbursements to date.

Additionally, we noted that the ROA adjusting entry was improperly posted before all loan guaranty
transactions were posted to the general ledger. As a result, the defaulted loan guaranty and liability for loan
guaranty balances were overstated by $32.7 million.

The lack of process controls resulted in cumulative misstatements totaling $379.3 million related to the
defaulted loan guaranties and liability for loan guaranty balances at September 30, 2009. SBA
subsequently recalculated the alignment entry and reposted the transactions to correct the balances in error.

OMB Circular A-123, Management's Responsibility for Internal Controls, states: "management is
responsible for establishing and maintaining internal control to achieve the objectives of effective and
efficient operations, reliable financial reporting, and compliance with applicable laws and regulations.
Management shall consistently apply the internal control standards to meet each of the internal control
objectives and to assess internal control effectiveness."




                                                     1-1
                                                                                               Exhibit I
                                 u.s. Small Business Administration
                                          Material Weakness


Recommendations

We recommend that the Chief Financial Officer:

1. Implement a reconciliation procedure in which a staff member traces and agrees the NPV in the ROA
   calculation to the outputs generated by the CSC2 prior to posting the alignment entry in the general
   ledger.

2. Develop policies and procedures to ensure the ROA alignment entry is made after all credit reform loan
   guaranty activity has been posted to the general ledger.

3. Enhance SBA's procedures related to its in-depth analysis of the valuation of the liability for loan
   guaranties and defaulted loan guaranty receivable balances to ensure the balances are properly
   presented at the NPV in accordance with SFFAS No.2.




                                                  1-2
                                                                                                      Exhibit II
                                     U.S. Small Business Administration
                                           Significant Deficiency


The significant deficiency identified for the year ended September 30,2009, is summarized below:

(2) Improvement Needed in Information Technology (11) Security Controls

During fiscal year 2009, we noted that SBA made progress in several areas in its efforts to address prior
year IT internal control deficiencies. Despite these improvements, we also noted that deficiencies
continued to exist in the areas of security access controls, software program changes, patch management,
and end-user computing.
Security Access Controls

Integral to an organization's security program management efforts, technical security access controls for
systems and applications should provide reasonable assurance that IT resources, such as data files,
application programs, and IT-related facilities/equipment, are protected against unauthorized modification,
disclosure, loss, or impairment.

A summary of the security ac.cess control deficiencies we identified during the fiscal year 2009 SBA
financial statement audit follows:
•   We noted several C <.- '" -z..                  :I vulnerabilities, with G:..I< • z..   ") hosted by SBA' s
    (u<-. z.                                                                .J servi.ce provider. Details are not
    provided in this report due to their sensitivity, but have been provided to SBA management. Many of
    these issues were tracked by the internal (<.A 2.. :l support team; however, the issues were not
    appropriately tracked and prioritized by the Plan of Action and Milestones (POA&M) in which the
    Office of Chief Information Officer (OCIO) provides oversight and management.

•   We noted security vulnerabilities with (<><... -z. :Jhosted in the C. ~ . z.             =l Details are
    not provided in this report due to their sensitivity, but have been provided to SBA management.
    Although we noted improvement in this area since fiscal year 2008, consistent and periodic completion
    of vulnerability scans would have helped SBA reduce the number of vulnerabilities.

•   We identified access control weaknesses through our technical vulnerability testwork C~.             z..
                   J.
•   Validation of physical access to the data center at C~. '-          :J is not performed in accordance
    with SBA Standard Operating Procedure (SOP) 90-47.2, Automated Information Systems Security
    Program, which requires that a listing of authorized personnel for SBA computer facilities (e.g., server
    rooms) be maintained, and access be revalidated at least quarterly. In addition, we noted that visitor
    logs at C<.J<.. 1-                                        ] were not fully completed.

•   OCIO management was unable to provide reasonable assurance that electronic media is sufficiently
    sanitized prior to disposal, in accordance with SOP 90-47.2. The SOP requires that (1) media must be
    sanitized prior to disposal by using one of the three approved methods: overwriting, degaussing, or
    destruction, and (2) a log of who completed the sanitation action must be maintained.

•   OCIO management was unable to provide reasonable assurance that user access to the ~.LJ system
    was appropriately authorized and approved, in accordance with National Institute of Standards and
                                                    II-I
                                                                                                        Exhibit II
                                   U.S. Small Business Administration
                                           Significant Deficiency


    Technology (NIST) Special Publication 800-53, Recommended Security Controls for Federal
    Information Systems, Section AC-2.

•   OCIO management does not enforce a process for monitoring, reviewing, and signing-off on the audit
    logs C-uo.. 'L
                                :J.
The majority of the above issues are consistent with findings identified by the Office of Inspector General
(OIG) in past years. In fact, the OIG has identified IT security as a significant SBA management challenge
since at least fiscal year 2000.

Recommendations - Security Access Controls:

We recommend that the ChiefInformation Officer (CIO) coordinate with SBA program offices to:

4. Improve the vulnerability tracking and monitoring process to include unresolved
   vulnerabilities in the C<'" .l-J POA&M.

5. C~z..
                                                                                                 J.

6. Develop a more thorough approach to track and mitigate patch management and configuration
   management vulnerabilities identified during (~.z.J scans.

7. Prevent users from C <JC. • 2.                  :J to the [U<..       2.                  ~   by developing
   and implementing procedures for ensuring mandatory [Qo..z.                                             ].

8. Implement controls to comply with SOP 90-47.2 regarding the validation of Coo... 2-            :I to the data
   center.

9. Implement procedures to control the process for requesting and granting access to the (~.'1..J system,
   and implement procedures to retain the appropriate approval evidence for tracking and validation.

10. Implement a process to monitor the audit logs of all (.~. z...            ::l on a regular basis.
Software Program Changes
The primary focus of an organization's software change controls (which also encompasses patch
management and configuration management efforts) is on controlling the software changes made to
systems and applications in operation. Without such controls, there is a risk that security features could be
inadvertently or deliberately omitted or turned off, or that processing irregularities or malicious code could
be introduced into the IT environment.




                                                    11-2
                                                                                                  Exhibit II
                                  u.s. Small Business Administration
                                          Significant Deficiency



A summary of the software program change control deficiencies we identified during the fiscal year 2009
SBA financial statement audit follow:

•   An agency-wide change control process has not been implemented, and the Enterprise Change Control
    Board (ECCB) charter is in draft form. In fiscal year 2008, the Office of the ChiefInformation Officer
    (OCIO) stated that the ECCB charter would be implemented and that it would adhere to the IT
    Infrastructure Library.

•   The OCIO was unable to provide evidence" that (l) testing and approvals were performed for six of
    eight selected LAN\WAN operating system changes, (2) testing and approvals were performed for
    eight of eight selected Financial Reporting Information System (FRIS) operating system changes, and
    (3) the listing of JAAMS operating system changes was complete and accurate.     "

•   The OCIO was unable to provide evidence that changes to the LANIWAN were appropriately tracked,
    approved, and implemented for the selected sample of seven application changes.

•   Change controls to management LAN/WAN emergency changes were not sufficient. The OCIO was
    unable to provide testing results and approvals for two of the three selected emergency changes.

•   The Office of the Chief Financial Officer (OCFO) was unable to provide evidence that the software
    change requests were consistently completed for JAAMS and the FRIS.

•   The OCIO was unable to provide evidence that baseline configurations for LAS were updated in a
    timely manner. Documented baseline configurations enable the process of tracking and controlling
    software changes, especially as system security settings are changed.

Recommendations - Software Program Changes:

We recommend the CIO:

11. Oversee the development of a finalized ECCB charter that is supported by a promulgated SOP.

12. Implement procedures for documenting operating system, software, and emergency change testing
    results, testing approvals, and final approvals. Specifically, such procedures and controls need to be
    applied for the LAN\WAN.

We recommend the CFO:

13. Implement a process to capture all change requests for JAAMS.

14. Ensure consistent application of procedures for documenting operating system change testing results,
    testing approvals, and final approvals. Specifically, such procedures and controls need to be applied for
    the FRIS.




                                                    II-3
                                                                                                 Exhibit II
                                  u.s. Small Business Administration
                                          Significant Deficiency


End-user Computing
End-user computing tools/programs (e.g., spreadsheets and other user-developed programs) present the
need for a unique set of general control procedures within an organization. By its nature, end-user
computing brings the development and processing of information systems closer to the user. End-user
computing capabilities typically include access to any end-user developed programs or objects, such as
spreadsheets that contain critical data/information. Critical data/information could include personally
identifiable information (PH) and financial data. While this environment may not typically be subjected to
the same level of rigor and structure as an IT general controls environment, policies and procedures in this
area are important to the overall IT environment. During our follow-up on this prior year deficiency, we
noted that the policy and procedure has been drafted, but, had yet to be finalized, approved, and
implemented in the SBA environment.

Recommendations - End-user Computing:

15. We recommend the Senior Policy Analyst in the Office of the Administrator coordinate with program
    offices using end-user programs containing sensitive data, such as PH and financial data, to implement
    end-user computing procedures in accordance with the guidance provided by the OCIO.




                                                   II-4
                                                                                                 Exhibit III
                               u.s. Small Business Administration
                             Status of Prior Year Significant Deficiency


Fiscal Year 2008 Finding                            Fiscal Year 2009 Status of Finding

1. Improvement needed in management information     During our review of SBA's information technology
   technology security controls                     (IT) general and application controls, we noted
                                                    improvements in remote access authorizations, C~. z..

                                                           :l sanitization over sensitive media, and user
                                                    account recertification for the Loan Accounting
                                                    System and the LANIWAN. However, we continued to
                                                    identify opportunities for SBA to improve· its internal
                                                    controls. The control deficiencies that continue to exist
                                                    are in the following areas: security access controls,
                                                    software program changes, and end-user computing.
                                                    This year, we also noted weaknesses in port security
                                                    and the monitoring of system audit logs.

                                                    Therefore, in fiscal year 2009, the presentation of the
                                                    issue was modified to reflect current year operations,
                                                    and we continue to report a significant deficiency in
                                                    internal controls as it relates to IT systems and their
                                                    impact on the consolidated financial statements. See
                                                    Exhibit I for additional information.




                                                 III-I
                                                                                                Exhibit IV

    \,.&:.,

~
.

.
~
              .                U.S. SMALL BUSINESS ADMINISTRATION
                                         WASHINGTON.    D.C. 20411

    """ST"~




              DATE:          November 13,2009

              TO:            Debra Ritt. Assistant IG for Auditing
                                  [Dc..~J                         -
              FROM:          Jononllcin:-e<1l ver, Chief Financial Officer

              SUBJECT:       Dran Audit Report on FY 2009 Financial Statements

              The Small Business Administration is in receipt of the draft Independent Auditors'
              Report from KPMG that includes the auditor's opinion on the financial statements and
              review of the Agency's internal control over financial reporting and compliance with
              laws and regulations. The independent audit of the Agency's financial statements and
              related processes is a core component of SBA' s financial management program.

              We are delighted that the SBA has again received an unqualified audit opinion from the
              independent auditor. We believe these results accurately reflect the quality of the
              Agency's financial statements and our improved accounting, budgeting and reporting
              processes. As you know, the SBA has worked hard over the past several years to address
              the findings from our independent auditors. Our core financial reporting data and
              processes have improved. substantially and we are proud that the results of our efforts
              have been confirmed by the independent auditor. The draft audit report contains a
              material weakness concerning controls around the Liability for Loan Guaranties (LLG)
              and the Return On Assets (ROA). This calculation is performed once a year under severe
              time constraints. The SBA has procedures in place for this calculation; however due to
              time constraints the procedure was not completely followed. SBA will ~mprove the
              process controls around Loan Liability Guaranties (LLG) and Return On Assets (ROA) in
              order to mitigate the significant time constraints during the audit. It is notable that this
              error was corrected within hours upon notification by the auditors.

              The audit report includes a continuing significant deficiency in the SBA's information
              technology controls. As the auditors noted in their report on the 2009 financial
              statements, the SBA made substantial progress in resolving IT deficiencies. The SBA
              will continue to improve the Agency's IT security during the upcoming fiscal year. The
              SBA is developing plans to track, monitor, and aggressively mitigate vulnerabilities in all
              agency systems. Furthermore, the SBA will clarify and strengthen detailed procedures
                                                                                    Exhibit IV


required to ensure security access controls are in place to protect SBA data from
unauthorized modification, disclosure, and loss.

The audit report contains one instance of non-compliance with applicable laws and
regulations as of September 30, 2009 that the SBA identified. During FY 2009, the SBA
did not refer a substantial number of loans to the Treasury Department for cross-servicing
or for the Treasury offset. The SBA management team established a Debt Collection
Improvement Act (DCIA) team to tackle the problem comprised of members from the
Offices of Capital Access, Chief Financial Officer and Chief Information Officer. The
root of this error was identified as a system coding error. The error has since been
corrected and additional resources have been allocated to refer these loans to the Treasury
within the next six months. A mitigation plan is in place to ensure that this error does not
occur in the future.

We appreciate all of your efforts and those of your colleagues in the Office of the
Inspector General as well as those of KPMG. The independent audit process continues to
provide us with new insights and valuable recommendations that will further enhance
SBA's financial management practices. We continue to be committed to excellence in
financial management and look forward to making more progress in the coming year.
